 Thames RiveI' Bridge Project
           Audit Of
Contract Modification C"OO 12P§
      Pier Modifications


       ](i'inal Report
                Thames River Bridge Project
          Audit of Contl'act Modification C·0012· PS

                             Filial Report



                        Report A(1dressed To:

                          Gary E. Eckelll'ode
                    Seniol' Dil'cctor - Procurement
                    30lh Sft'cct IIlId Market Streets
                       Philadelphia. PA 19104




                          Report Iss\lell By:

     NATIONAL RAILROAD PASSENGER CORPORATION
        OFFICE OF INSPECTOR GENERAL· AUDITS
                   10 G STREET, N.E.
                WASHINGTON, DC 20002

                 DATE OF REPORT: JllllC 3, 2009
                  ImpORT NUMBER: 302·2009




This (locumont shall become availahle to the public 011 Augnst 3, 2009
                                  Thames River Dl'idge Project

                         Audit of Contract Modification C-0012-PS



                                        Executive Summary



We completed fill audit of contract modification c-oo 12-PS. This agreement modified contract
number C-069·24978 between Amtrak and Cianbro Construction Corporation (Ciunbro) which
Amtrak executed for the rehabilitation of the Thames River Bridge located in New London,
COIUlecticllt. Amtmk approved the modification (Modification No.C .. 0012·PS) in Apl'il2008 for
required additional work on lWO bridge piers inchlding additional reinforcing steel, and increased
concrcte strengthening. The modification was executed for a not-to-exceed flmollllt of
$2,080,198.33.

Our audit objective was to determine if the cost 01' pricing data submitted by Ciunbl'o in support of
the modification cost was accurate, complete, and CUrrel)!. The audit was pel'fol'lned itl the winter of
2008 at Cianbro's regional office in Bloomfield, COlmecticu\. The audit scope el)compassed all cost
accolUlting and financial information necessary to complete the audit objective. In accomplishing
the mldit objective, we reviewed incurred cost fo1' cost elements submitted fo1' the contract
modification.

The results of 0\11' review ittdlcated that Cianbro's sllbmitted cost 01' pricing data was not entirely
accurate, complete, 01' current. We identified adjustments that increased and decreased Gianbro's
submitted costs resulting in a conclusion that Amtrak is due a net decrease in the cost ofthc
modification hI the amO\lllt of$7,638.
                                  Thames Rivel' Bridge Project
                            Audit of Contt'act Modification C-0012-PS
                                                            Draft Repol't # 302-2009

                                                     TABLE OF CONTENTS

                                                                                                                                                                                                             PAGE

II      BACI{GROUND ,...                           'U . . . . . . l l l l l . . . . . . . "   •• U' . . . I ) I I I I . . . . I . . . . . ' I I . I I " ' . . . . . . " . . . . . . . . . . . . . .   ,."Ul." ....... 1

II.      OBJECTIVE ....                  l t l l l . . . . . . . ,HIIIIIH . . . . l f l l I . . . . . . . . . . .    tt''' ...... III ... IIt . . . . . H I ' ' ' ' •• I ••• ,U.U' . . . . . . . . . " I . ' 1

III,    SCOPE         II"   . . . . II.'H " ""111 to II . . . . . . . . H''' . . . . "lilt I U 11" ... 11'.11111 ••••• llttl                                    "If .....       11111"'" . . . , •• " , .. , . . . . .        2

IV.     SPECIAL CIRCUMSTANCES AFlrECTlNG THIS EVALUATION............ 2

V,      ME1'HODOLOGY                               1 ... ' .. I I 1 I " . . . . " n " ' I I I " ...... " ' I . . . . . . . . . . . II . . . . . . . . . . I I I I . . . . . . . . . . . . . , . . . . . . 111 . . . . . . .   2

VI.     EVALUATION OF INTERNAL CONTROLS ................................................. 2

VII.    PRIOR AUDIT COVERAGE.....                                                         I I I I I I C ' . f t U . U l l l l l l l l l •• I H I . I I I I ' ... " I ' t " " . . . . , . . . . . . . . . . . 0." ..    ,.2

VIII. FINDINGS AND RECOMMENDATIONS                                                                                          (1 . . . . . . . " " " . . . " " . . . .        11 . . . . . 01" . . " " . . . . . . . . " "      3

Al)l)ell(lix A:" ..   t.1t ".   u.tt, I t •• II ..... II.' I, It. '"           lUll I' " ' " 1'" .... 1t '" . . . . .                  If"" ........ " ....... '"                      II .......... till" .....              4
                                   Thames River Bl'idge Project
                            Audit of Contract Moodification C-0012-PS
                                        Final Report                  Report1l302-2009


1.      BACKGROUND

In July 2005, Amtrak persOlmel assigned to the Thames Rivel' Bridgc rehabilitation project asked
Washington Group Intel'llational (WOl), Amtrak's COllsh'\lction Manager, to obtain the services
of a geotechnical consultant for the plll'pose providing l'eCOmmelldations for arresting unexpected
movement of two bridge piers. WGI entered into agreemellt with Muesel' R\ltledge Consulting
Engineers (MR) to perform this task. MRinvestigated possible solutions for the stabilization of
the piers throughout the second half of calendar year 2005, As a part of its investigation, MR
developed theoretical loads for the existing piers and pl'Oposed pile foundations for the two piers,
MR's proposal was presentc<! to the project designer, HNTB, which made several significant
revisions to the original contract drawings and speoifications, The revisions resulted ill a need to
modify the bddge rehabilitation project to increase reinforcing steel, post tensioning, and
strengthen concrete for two piers,

Cianbro pClformed the additional work and submitted an invoice to Amtrak in Febr\lal'y 2008,
The submitted invoice which totnled $2,080,198 was prepared 011 a cost plus basis as prescribed
in the contract between Amtrak and Cianbro Construotion. Amtrak executed modification
number C·0012-PS ill April 2008 ftlld paid Cianbro $2,080,198 fOl' the extra work.

II.     OBJECTIVE

The objective ofthis audit was to determine if the cost or pricing data that Cianbro submitted in
support of the price ($2,080,198) of contract modification 1l0.C-OO 12- PS was accmate, complete
and cmrent and to determine if Amtrak is entitled to a red\lction in the modification price. A
clause Included ill Amtrak's contract with Cianbro entitled "Changes In the W01'k" (Section 41.8)
requires the prime contractor and subcontractors to certify that the cost 01' pricing data submitted
in SUPpOlt of a modification Is accmate, complcte, and cutrent. This clausc also statcs that in the
event that contractor cel'tiiled cost 01' pricing data is subsequently foulld to be inaccurate,
incomplete, 01' not cunent, Amtrak is entitled to a reduction in the modification price equal to the
difference between the modification pdce and the plioe that the change order would have been,
had the contractor submitted accurate, complete, and C\l1')'cnt data,




                                            Page I of5
                                   Thames Rivel' Bl'idge Project
                            Audit of Contl'act Moodification C-OO 12-PS
                                        Final Report                    Report1l302-2009


 III.   SCOPE

The scope of 0\11' audit of contract modification C-0012-PS encompassed Cianbro
C011stl'Uction's February 2008 submission of documentation Supp011ing $2,080,198 of costs for
the extra work pel'formed to modify two bddgc piers,

We conducted this pelfol'll1ance audit In accordance with genel'aHy accepted govertul1enl
auditing stalldards, Those standards l'e<luire that we plan and perform the audit to obtain
sufficicnt, appropriate evidence to provide a reasonable basis fol' OUI' findings and COnCi\ISio11S
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based 011 Oul' audit objectives,

lV.     SPECIAL CIRCUMSTANCES AFFECTING THIS EVALUATION
We considered Washington Group's lettel' dated Febl'uary 19,2008 recommending payment of
$2,080,198 as Washingtoll Group's acceptance of the teclUlical and quantitative aspects of
Cianbro's submission.

V.      METHODOLOGY
Our methodology i11cluded a review of documentation submitted in SUppOl't of the claimed costs,
as well as, htterviews of Amtrak project personnel and Cianbro represelltatlveS.
VI.     EVALUATION OF INTERNAL CONTROLS

We did not review Cianbro's system ofintel'llal c011trols, We concluded thatthe atIdi! objective
coul{l be achieved mOl'e efficiel1tly by performing substantive audit testing, We oiso determined
tbat Clallbro's cost system provided adequate segregation of costs illCt1l'l'ed fot' the cxtl'a work
pel'fonned !i:om costs incurred fot' ongoing base contract work,

VII.    PRIOR AUDlT COVERAGE

This Office of Inspector General completed an audit of a $299,819 contract modification CA\ldit
Repolt N\lmber 306-2006) which was executed to perform concrete bOrillgS needed to eVal\lOte
bridge piers. Cianbro's submitted cost data for the COllcrete boring modification was 1\ot
cOllsi<iere(l entirely accurate, compiete, 01' cutren!. We questioned $16,000 which included
overstated material, labor, equipment and subcontractor costs. We arc currently auditing a
$10,996,068 propose(1 modification for a grouting project to stabilize two bl'ldge piers,
Preliminary results oflhe audit of grouting costs of include findings pertaining to overstated
subcontractor costs; extended ovel'11ead labor costs; and, \lIlallocablc pel'fOnnatlce boud costs.



                                            Page 2 of 5
                                      Thames Rivel' Bridge Project
                               Audit of Contract Moodificatioll C-OOl2-PS
                                           Final Report                   Report#302-2009


VIII. FINDINGS AND RECOMMENDATIONS


Finding 1           Cianbro's Submitted Cost 01' Pricing Data Was not Fully
                    Compliant with Contl'lIct Tcrms.
Discussioll

Cianbro's submitted cost ol'pl'icing data used to support the costs of the bridge pier modiflcation
price of$2,080,198 was not considered \llltirely accurate, complete, 01' ctll'rent as required by
General Pt'Ovislons Section 41.8, Wc identified adjustments that incrcased and decreased
Cianbl'O's submitted costs rcslilting in a conclusion that Amtrak is due a net decrease in the cost
of the modification in the amount of $7,638, Details of the recommended adjustments are
presented hI the Appendix of this report.

Recommelldlliioll

Amtrak shol1ld P'll'slle a price reduction of contract modification C-0012-PS ill the amount of
$7,638 in accordance with contract general provisions section 41 ,8.

Management Response

Thl.l Contracting Agent, Contracting al\(I Materials Managemcnt rcsponded to the draft rcpolt by
stating that "No exceptions are taken to yOUl' findings a11d/or conclusions at this point in lime,"


This concludes oUl'report.

Audit Staff:

               I,   Supervisor" Alldits




iOYi.Wi~
Senior Director - Audits




                                             Page 3 ofS
                                    Thames River Bridge Project
                             Audit of Contract Moodification C-OO 12-PS
                                         Final Report                   Report1l302-2009



                                               Appendix A:

                         Contract Modification No. C-0012-PS
                            Analysis ofModificatioll Price
                                                                        Alli!i!
                             Cianbl'o                                 Recommended

   Element                Submission               Questioned

Direct Matel'inl         $          '   .. -       $(25,869.32)                      1

DJrect Labor

Labor Indirect Costs

Costs Owned Equijlment

 Subtotal                                          (25,869.32)

Overhead (Ii                                        (1.940.20)                       2

Subtotal                                           (27,809.52)    •

Profit@3% _                                          (834.28)                        3


Cianbro Own Costs                                  (28,643.80)

Subcontractor                                       34,554.21                        4

Mark-ujl 011 Subs@                                   1,727.71                        5


Rental Equipment

Totals                                                7.638.12

')Dlffers from submitted costs by $.01 due to rounding
                                                                                                           I
                           Thames River Bridge Project                                                  I
                                                                                                        I
                    Audit of Contract Moodification C-0012-PS                                          I
         _ _ __ _ __ _ _ _.2Fccit"'\a"-l",R""ell",ort         Reportfl.302-2009                        I
                                                                                                       I
                                                                                                       I
                                                                                                       I
                                                                                                       II
Notes:

   I. The submitted costs represent paid invoices for the pier Illodificatiolls. The upward
      adjustment in the amount of$2S,869.321'eprescnts material costs which were incorrectly
      submitted as subcontract costs. See notc 4 Subcontract costs.
   2. The submitted costs were based on upplying the % overhcnd rate Jler contract terms to
      submitted direct costs. The cost questioned uJlward adjustment amount of$1,940.20
      represents the difference hetweell the submitted costs of :               . and audit
      determined amount of r
   3. The submitted costs were based on applying the % profit mtc per contract terllls to
      submitted direct nlld overhead costs. The cost questioned upward adjustmcnt amount of
      $834.28 represents the difference between the submitted costs of S                  Illd audit
      determined amount of .
   4. The submitted costs of!                 represent subcontract costs [01' Concrcte Cutling and
      Breaking Inc. and material costs incorrectly submitted as subcontract costs. The cost
      questioned amount represents the difference between the submitted amount and audit
      determined amount of                 I for subcontructor costs. We considered $25,869.32 of
      the UIllOllllt questioned to be material costs incorrectly submitted as subcontractor costs.
      See note 1.
   5. The submitted costs were based on awlylng the Yo mark-up xate pel' contract terms to
      submitted subcontractor costs. The cost questioned amount of $1,727.71 represents the
      diffexence between the submitted amount of                  , and the audit determined amollnt
      of:.             which was derived by applying the murk-up rate of 0 to the audit
      detexmined subcontractor costs of




                                           Page 5 of5
